WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-555

R. Ray Fulmer, II

v.

Fifth Third Equipment Finance Company, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
[11 Please enter my appearance as Counsel of Record for all respondents.
EJ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

URS Real Estate, LP

111 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
mbe
will be filed by a Bar
Signature

plybi

Date.
(Type or print) Name

Scott Ernest Taylor
El Mr.

Firm

❑ Ms.

❑ Mrs.

0 Miss

Arnall Golden Gregory LLP

Address

171 17th Street, NW, Suite 2100

City & State
Phone

Atlanta, GA

(404) 873-8728

Zip
Email

30363-1031

scott.taylor@agg.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Whitney A. Davis, Counsel of Record for Petitioner - (wdavis@davistrialcounsel.com)

